OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/SOUTH
SUDAN’S MANAGEMENT OF
NONEXPENDABLE PROPERTY
AUDIT REPORT NO. 4-668-14-008-P
SEPTEMBER 30, 2014




PRETORIA, SOUTH AFRICA
Office of Inspector General




September 30, 2014

MEMORANDUM

TO:                  USAID/South Sudan Mission Director, Teresa McGhie

FROM:                Regional Inspector General/Pretoria, Sarah Dreyer /s/

SUBJECT:             Audit of USAID/South Sudan’s Management of Nonexpendable Property (Report
                     No. 4-668-14-008-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in Appendix II.

The report includes ten recommendations to help strengthen the management of the mission’s
nonexpendable property. We acknowledge management decisions on all recommendations.

Please provide the necessary documentation to obtain final action on all ten recommendations
to the Audit Performance and Compliance Division in the Office of the Chief Financial Officer.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
http://oig.usaid.gov
CONTENTS
Summary of Results .................................................................................................................1

Audit Findings ...........................................................................................................................3

     Mission Did Not Have Procedures to Guide Property Replacement ......................................3

     Mission Did Not Have Sufficient Controls Over Its Auctions of Nonexpendable Property ...... 4

     Mission Did Not Determine Vehicle Needs ............................................................................5

     Mission Did Not Follow Procurement Regulations .................................................................7

     Mission Did Not Follow Vehicle Maintenance Requirements .................................................8

Evaluation of Management Comments..................................................................................10

Appendix I—Scope and Methodology ...................................................................................13

Appendix II—Management Comments ..................................................................................15

Appendix III—USAID/South Sudan’s FY 2013 Vehicle Information System ....................... 21
SUMMARY OF RESULTS
USAID and the State Department returned to the southern Sudanese city of Juba in 2006,
14 years after they left following a coup d’état. To help USAID’s mission get set up, other USAID
missions donated furniture, vehicles, and equipment called “nonexpendable property.” Many of
the items were not requested by the mission, and some showed signs of wear and tear.
Occasionally the donations came in large quantities on short notice, which complicated matters
for the staff because they did not have a formal inventory process in place yet.

Five years later, South Sudan became an independent country with Juba as its capital. Since
most U.S. Government employees working there were with USAID, the Agency was put in
charge of operating and managing nonexpendable property for both itself and the State
Department. Juba is one of five locations in the world where USAID provides services to other
U.S. agencies.

The Regional Inspector General (RIG) in Pretoria conducted this audit as part of our fiscal year
(FY) 2014 audit plan to determine whether USAID/South Sudan managed its nonexpendable
property in accordance with Agency guidance. However, we had to conclude the audit before
we completed all the steps because most U.S. Government employees were evacuated from
Juba on December 18, 2013, after fighting broke out between ethnic groups. As a result, we
cannot make a conclusion about the effectiveness of certain areas of property management at
USAID/South Sudan.

Based on the work completed, we found that the mission was not complying with guidance in
several key areas, listed below. We also noted that the mission was still validating inventory for
fiscal year 2013, and could not account for at least 12 percent of the items.

•   USAID/South Sudan did not have procedures to guide property replacement (page 3). As a
    result, the mission procured thousands of dollars in property to replace items that did not
    need to be replaced.

•   USAID/South Sudan did not have sufficient controls over its auctions of nonexpendable
    property (page 4). Documentation of annual auctions did not list what was sold or the
    proceeds received for each item. As a result, the audit could not account for a difference of
    more than $50,000 between the total amount recorded as proceeds from the auction and
    the actual amount received.

•   USAID/South Sudan did not determine vehicle needs (page 5). Each year missions must
    determine the number and type of vehicles necessary for ongoing operations. However,
    USAID/South Sudan did not have any analysis to support its current or planned fleet size.

•   The mission did not follow procurement regulations (page 7). Contracting officers must
    justify limiting competition whenever a brand name is specified in a procurement. For
    ten new vehicles received in FY 2013, the mission not only included the specific brand of
    vehicle in the request for quotations, but the specific models. A justification was not
    prepared because the mission involved the contracting officer only on the day the contract
    needed to be signed. Further, the request for quotations was so specific that it was nearly
    impossible to comply with the request—none of the bidders shown complied with all of the



                                                                                                1
    requirements. As a result, the mission awarded the contract to a bidder that was $54,000
    more than another quotation that also did not comply.

•   USAID/South Sudan did not follow the Agency’s vehicle maintenance requirements
    (page 8). Inconsistent maintenance may have led to the premature disposal of vehicles,
    such as four armored vehicles that cost the Agency a total of $600,000 and had been driven
    fewer than 30,000 miles each.

To address these problems, this report recommends that USAID/South Sudan:

1. Address the significant control deficiency with the mission’s personal property management
   and document actions taken (page 4).

2. Prepare a written list of the minimum replacement standards for nonexpendable property
   that it manages (page 4).

3. Implement procedures to document the reason for disposing of property before the end of its
   useful life (page 4).

4. Prepare a schedule of property in its inventory organized by expected disposal date
   (page 4).

5. Implement written procedures governing the disposal of assets, including adequate records
   to determine which items were sold, at what price, and to whom, and the timely
   reconciliation of any differences (page 5).

6. Implement written procedures to comply with State Department and USAID requirements to
   review the number and type of vehicles required for operations in South Sudan (page 6).

7. Provide and document training to the motor pool supervisor on the vehicle management
   information system (page 6).

8. Make a written determination of which officials were responsible for noncompliance with
   regulations regarding the vehicle procurement and document any appropriate remedial
   actions taken (page 8).

9. Implement procedures to identify and document the brands and types of vehicles that need
   to be procured before asking for quotations, including why these specific vehicles are
   required (page 8).

10. Implement policies and procedures to comply with maintenance requirements (page 9).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments are included in Appendix II, and our evaluation of them
begins on page 10.




                                                                                            2
AUDIT FINDINGS
Mission Did Not Have Procedures to
Guide Property Replacement
The State Department’s Foreign Affairs Manual states that personal property can be acquired
only when a “bona fide need exists,” and U.S. Government officials “must ensure that personal
property is being utilized to the fullest extent practical.” The manual states, “Immediate and
long-range planning must include the requirements for new or replacement property” and also
requires USAID to prepare a report documenting all property disposal actions. 1

Although the State Department has established how long various types of property should last,
it allows variations based on local conditions. It requires property managers to prepare a
schedule of all items in the inventory to estimate when each item needs to be replaced, given its
age, local conditions, amount of use, quality of repair facilities, and availability of replacement
items.

However, USAID/South Sudan acquired goods without identifying a bona fide need and did not
use existing property as long as possible. When mission officials decided they needed certain
items, such as bedroom sets, they simply counted how many sets they had and procured that
number—without evaluating the condition of each piece. In 2013 the mission spent nearly
$12,000 for 20 new refrigerators, 14 of which replaced ones the mission sold at auction that
year. Although two of the refrigerators sold were received 6 years earlier and were likely at the
end of their useful life, ten were received 4 years earlier, and the last two, which cost a total of
$2,560, were received only 17 months before the mission sold them at auction.

USAID/South Sudan’s property disposal reports did not state why some items were disposed of
before the end of their useful lives. For 583 items auctioned off in 2013 that originally cost
USAID more than $1 million, the only explanation provided in the disposal report was, “Attached
listed USAID owned items have exceeded their life cycle. The overall condition was poor and
were no longer required by USAID operations and therefore were subject to the disposal.”

The mission identified personal property management as a significant control deficiency in its
annual review required by the Federal Managers’ Financial Integrity Act of 1982 2 (FMFIA), but
did not follow through on plans to address this weakness. USAID reported personal property
management as a significant control deficiency in its 2010 FMFIA assessment that included
operations in Juba. The Agency originally planned to address the problem by training staff and
developing procedures to manage personal property by June 30, 2011. The most recent
assessment extended this completion date to July 31, 2013. Yet as of December 2013, the
mission had not taken corrective action, and officials said they did not know whether any actions
had been taken to address the weakness.

Additionally, the mission was used to replacing items that were procured in the 1980s and
1990s. So when items procured more recently were scheduled for replacement, they did not
have procedures in place to determine whether something actually needed to be replaced. One
mission official characterized that requirement as a “best practice” and said the mission had not
1
    14 FAM 412.1, “Property Analysis and Management,” and 14 FAM 417.2, “Disposal Methods.”
2
    As codified in 31 U.S.C. 1105, 1113, and 3512.


                                                                                                  3
yet achieved that standard because of the high level of turnover in the Executive Office, which
often resulted in many changes of plans.

In addition, mission officials were unfamiliar with the Foreign Affairs Manual’s guidelines. They
said the useful life for nonexpendable property was sometimes unrealistic for USAID/South
Sudan. For example, air conditioners and refrigerators have to work extra hard in the year-round
heat of Juba. Also, the mission cannot easily repair broken property because craftsmen and
supplies are difficult to find. Further, the executive officer said they did not have any flexibility to
adjust the useful life. However, the manual explicitly grants missions this flexibility.

         Each bureau/office/post evaluates its minimum replacement standard that
         reflects unusual local conditions. The bureau/office/post considers the degree of
         use of the item, extreme climatic conditions, fluctuation of electrical power (if
         applicable), availability and quality of maintenance and repair facilities, actual
         past exchange/sale or other local conditions that may influence the minimum
         replacement standard. 3

Because USAID/South Sudan did not have procedures in place to guide property replacement,
it replaced thousands of dollars in property before the end of its useful life. For example, the
useful life of furniture, like a china cabinet, is listed as 12 years. However, the mission disposed
of six china cabinets in 2013 that cost a total of $7,694, although they could have been used for
7 more years if they were purchased in 2006 when the mission reopened, according to the
manual. Given the conditions in South Sudan, these items could have been in poor condition
and local facilities would not exist to repair them. But the mission lacked sufficient procedures,
the staff lacked expertise, and documentation to demonstrate why these items needed to be
replaced. To address these issues, this audit makes the following recommendations.

      Recommendation 1. We recommend that USAID/South Sudan address the significant
      control deficiency with the mission’s personal property management and document
      actions taken.

      Recommendation 2. We recommend that USAID/South Sudan prepare a written list of
      the minimum replacement standards for nonexpendable property that it manages.

      Recommendation 3. We recommend that USAID/South Sudan implement procedures
      to document the reason for disposing of property before the end of its useful life.

      Recommendation 4. We recommend that USAID/South Sudan prepare a schedule of
      property in its inventory organized by expected disposal date.

Mission Did Not Have Sufficient
Controls Over Its Auctions of
Nonexpendable Property
The Government Accountability Office’s Standards for Internal Control in the Federal
Government states that internal controls, including plans, methods, and procedures, are the
“first line of defense in safeguarding assets.” These controls help ensure that all transactions
are completely and accurately recorded, and that these records are readily available.

3
    14 FAH-1 H-213, “U.S. Government-Wide Minimum Replacement Standards.”


                                                                                                      4
Additionally, Automated Directives System (ADS) 596.3.1 states that monitoring these controls
should include periodic reconciliations.

However, the mission’s internal controls over its auctions of nonexpendable property were
insufficient. The documentation from the annual auctions did not state what was sold or the
proceeds received for each item. For example, the documentation the mission retained for the
March 2013 sale of assets that cost USAID more than $1 million was a list of items sold in
groups at auction. The auctioneer recorded the winning bid for each group, and the mission had
an official at the auction who also recorded the winning bid. However, the amounts listed for
12 of the 145 groups sold differed without any explanation or reconciliation of the differences.

These problems occurred because mission officials said they thought the procedures they had
were well developed. However, they later acknowledged that there were some weaknesses.
Although having a mission employee at the auction to verify bids was a necessary control, it
was not sufficient if differences in winning bids recorded by the observer and the auctioneer
were not investigated and resolved promptly. Even if cashier records could show which amount
was paid, payment receipts were unlikely to explain why amounts differed. Although the
differences recorded by the observer and auctioneer for the 12 bids in question were generally
small, not resolving them promptly could expose the mission to greater risks of fraud. For
example, a bidder could bid $10,000 for a lot of property and then bribe the auctioneer to record
the winning bid at a lower amount, and then sell the property at the market in Juba for a profit.

Because USAID/South Sudan did not have documentation reconciling auction records of about
$248,000 in sales with a USAID receipt for less than $195,000, the mission could not readily
account for more than $50,000 from the auction. Mission officials said bids may have been
cancelled and the cashier should have records of cancelled bids. Because they told us this on
the last day of fieldwork, and the audit ended prematurely, we could not verify this explanation.
However, even if this were the case, the standards require that transaction records must be
readily available as well as complete and accurate. Management should perform periodic
reconciliations as part of the mission’s internal controls, in accordance with ADS 596.3.1.

Insufficient internal controls led to other vulnerabilities. The mission was especially vulnerable
because of the lack of documentation to indicate why an item was sent to auction (discussed on
page 3). For example, through collusion, USAID warehouse employees could send usable
property to auction and purchase it well below market value without being detected.

To address these issues, this audit makes the following recommendation.

   Recommendation 5. We recommend that USAID/South Sudan implement written
   procedures governing the disposal of assets, including adequate records to determine
   which items were sold, at what price, and to whom, and the timely reconciliation of any
   differences.

Mission Did Not Determine
Vehicle Needs
Each year missions must determine the number and type of vehicles necessary for ongoing
operations. The Foreign Affairs Manual requires USAID to review that it has the right number




                                                                                                5
and type of vehicles, and that these vehicles are assigned and used properly. 4 Specific
guidance for USAID states that the number of vehicles “must be limited to the number required
for official purposes.” 5 Missions with more than six vehicles are required to analyze the number
of vehicles and drivers needed each year.

Despite this guidance, USAID/South Sudan did not have any analysis to support its current or
planned fleet size. Mission officials said they had a system to perform this analysis. However,
the information in that system was insufficient to conduct any reasonable assessment of the
number, type, or use of the vehicles in Juba. For example, the system omitted eight vehicles the
mission owned and included some vehicles that were purchased by other U.S. Government
agencies. Additionally, as shown in Appendix III, the system:

•     Included two vehicles that were listed twice.

•     Stated that one of the vehicles was purchased for $38.5 million and another was purchased
      for $3.8 million.

•     Listed seven vehicles with a purchase price of $0.

Moreover, USAID/South Sudan could not produce a report that showed how many and which
types of vehicles the mission required. Therefore, even if the system had been used to prepare
the required analysis, it would have been based on flawed information. In addition, the mission
did not use it to procure or dispose of vehicles.

Mission officials said they consult the regulations when they make management decisions, but
they may not have all the processes in place to comply with these regulations. The motor pool
supervisor said he did not enter information into the system correctly because he needed
training on how to use it.

Because USAID/South Sudan was not assessing the number of vehicles it needed, it could not
state that the 80 vehicles it reportedly operated were required for official purposes. Given the
insecurity in South Sudan and the general lack of approved forms of transport for U.S. officials,
proper planning for vehicle needs is vital to the success of U.S. Government activities there.
Additionally, the mission would be wasting resources if it is purchasing and operating more
vehicles than are required. As a result, this audit makes the following recommendations.

      Recommendation 6. We recommend that USAID/South Sudan implement written
      procedures to comply with State Department and USAID requirements to review the
      number and type of vehicles required for operations in South Sudan.

      Recommendation 7. We recommend that USAID/South Sudan provide and document
      training to the motor pool supervisor on the vehicle management information system.




4
    14 FAM 434.3, “Review of Assigned Vehicles and Usage.”
5
    ADS 536.3.4, “Fleet Size and Composition.”


                                                                                               6
Mission Did Not Follow
Procurement Regulations
Federal Acquisition Regulations (FAR) lists many requirements for the contracting officer to
consider before requesting quotations, including how to increase competition for a contract.
Additionally, these regulations state that if an acquisition specifies the brand name of a product,
it “does not qualify as full and open competition, regardless of the number of sources solicited.”
These regulations further require the officer to justify limiting competition. 6

For ten new vehicles received in FY 2013, the mission not only included the specific brand of
vehicle in the request for quotations, but also the specific models. This became problematic
because none of the bidders had all of the specific vehicles available. For example, the mission
specified that the Toyota Hiace should be a 3.0-liter diesel engine, but the winning quote
included a 2.5-liter turbo diesel engine. Also, the mission requested a Toyota Hino Rollback
258 ALP, but none of the bidders had this vehicle. Although none of the quotes received
complied with the specifications in the request, Executive Office officials eliminated all but one
quote, which happened to be the most expensive.

Mission officials supported limiting the procurement to Toyota, noting that South Sudan is
primarily a Toyota market. Although the mission surveyed garages in Juba and found that they
were not equipped to maintain and repair American brands (e.g., Ford), this documentation
clearly showed that these garages worked on other Japanese vehicles (e.g., Nissan). The
mission used this survey to waive U.S. Government requirements to purchase vehicles that
were manufactured in the United States. However, this waiver would not allow the mission and
its contractors to limit procurements to Toyota.

These problems occurred because the contracting officer was not involved in the procurement
until he was asked to sign the contract on September 27, 2012. He said he relied on the
Executive Office to manage the procurement, even though regulations require that a contracting
officer be involved in a procurement before asking for quotes. The audit team could not confirm
the reasons cited or people involved in noncompliance with procurement regulations due to the
evacuation of USAID personnel from Juba and early end to the audit.

Nonetheless, the audit noted that the mission’s request for quotations was so specific that it was
impossible to comply and therefore had the effect of limiting competition. Additionally, mission
officials used these narrow criteria to eliminate four of the five offers received. The
memorandum that summarized the procurement process stated that two quotations were
outside the reasonable price range and getting some optional items on the vehicles could not be
done until after the vehicles arrived. Two other quotes were excluded as noncompliant, although
the memorandum did not explain why.

The memorandum does not discuss why the remaining quote was considered compliant,
because at least three of the vehicles were different from the items requested. Nonetheless, the
mission awarded the contract to the vendor that submitted this offer, even though it was almost
$54,000 more than one of the other quotes that was also noncompliant.

As a result, this audit makes the following recommendations.


6
    FAR 6.302-1(c).


                                                                                                 7
   Recommendation 8. We recommend that USAID/South Sudan make a written
   determination of which officials were responsible for noncompliance with regulations
   regarding the vehicle procurement and document any appropriate remedial actions
   taken.

   Recommendation 9. We recommend that USAID/South Sudan implement procedures
   to identify and document the brand and types of vehicles that need to be procured
   before asking for quotations, including why these specific vehicles are required.

Mission Did Not Follow Vehicle
Maintenance Requirements
USAID’s ADS 536.3.12 requires that USAID/South Sudan establish a scheduled maintenance
program for all U.S. Government-owned or leased motor vehicles. It further requires that
armored vehicles—because of their cost—be scheduled for maintenance every 3 months or
3,000 miles, but notes that in severe climates these intervals may be cut by 50 percent. Finally,
ADS 536.3.14 requires USAID missions to maintain records for all mission-controlled vehicles,
including their repairs and maintenance.

Despite these requirements, USAID/South Sudan did not document its vehicle maintenance
consistently or accurately. The mission maintains its own shop for repairs, but also uses local
mechanics for maintenance and repair work as needed. In addition, mission officials said the
shop has a maintenance schedule, including the last time a vehicle was serviced. However, the
schedule was not always followed, and the last record only showed the mileage, not the date.

The motor pool supervisor maintains files for all vehicles the mission manages. However, these
records did not have any information on maintenance performed by the mission’s mechanics
and only included some of the work done by other mechanics in Juba.

Maintenance procedures were inadequate because the mission had not established policies
and procedures to comply with ADS requirements. The USAID official who began overseeing
these operations about a month before the audit said he was well aware of the deficiencies and
was working on improving the system.

These inadequacies led to several problems. For example, the mission stopped using
five armored G-class 2005 Mercedes that cost the Agency more than $719,000. Although the
vehicles were purchased before the audit period, records indicated that four had been driven
fewer than 10,000 miles and the fifth fewer than 12,300 miles. Mission officials said the
Mercedes were not in use because neither the mission mechanics nor local mechanics had the
equipment or expertise to work on them.

However, they did not consider other options for maintaining them. For example, the mission
could have requested quotations for a Mercedes mechanic to fly in every other month to service
vehicles. Although not ideal because of the costs for flights and other expenses, these
expenses are minor compared with the value of these vehicles that was lost because of
inadequate maintenance.

Additionally, inconsistent maintenance may have led to some vehicles being disposed of before
they needed to be. Mission records indicate that four armored vehicles that were ready to be
destroyed cost the Agency $600,000 and had fewer than 30,000 miles each, while the State



                                                                                               8
Department’s regional security officer was still using two vehicles that had more than
60,000 miles. As a result, this audit makes the following recommendation.

   Recommendation 10. We recommend that USAID/South Sudan implement policies and
   procedures to comply with maintenance requirements.




                                                                                    9
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft report, USAID/South Sudan provided some useful background that
we took into account before issuing the final report. Our evaluation of management comments
will consider the challenges faced by the mission in managing its nonexpendable property
program and then its response to our recommendations.

Challenges

USAID/South Sudan listed the challenges that have contributed to weak management of its
nonexpendable property, including:

•   Frequent turnover and lack of continuity in oversight by U.S. and third-country national staff
    combined with the limited experience and skills that local employees have had in managing
    property;

•   Increased insecurity due to the ongoing civil war. As a result, mission employees were
    ordered to leave for 6 months, and only 25 of the mission’s 45 employees were allowed to
    return. In addition to the reduced staffing level, a strict temporary duty policy was enacted
    that could prevent trainers and experts on nonexpendable property management from
    coming to the country;

•   Slow adoption of a new inventory management system due to insufficient system training,
    followed by the ordered departure of staff;

•   Harsh environmental and security conditions that shorten the life span of nonexpendable
    property.

Taking into account these challenges, we believe this audit report will serve as an effective
guide for USAID/South Sudan as it works to establish a stronger nonexpendable property
management system.

Recommendations

The report has ten recommendations to help strengthen the management of nonexpendable
property. The mission agreed with all except Recommendation 8. We reviewed management’s
comments and acknowledged management decisions on all ten recommendations. A detailed
evaluation of management comments follows.

Recommendation 1. USAID/South Sudan is addressing the significant control deficiency
identified with the mission’s personal property management. The mission began its annual
inventory on September 2, 2014. However, that inventory was not completed last year due to
civil unrest and a change in inventory management systems. So the completion date for this
year’s inventory is February 15, 2015. Additionally, the mission has asked the State Department
to train the warehouse staff on inventory management and proper use of the integrated logistics
management system to manage assets. We acknowledge management’s decision.


                                                                                               10
Recommendation 2. USAID/South Sudan has begun to document the minimum replacement
standards for the nonexpendable property it manages. The mission has developed a draft policy
for its furniture and appliance pool that could serve as written guidance on replacement
standards to consult before replacing any nonexpendable property. The mission plans to have
the policy finalized by January 30, 2015. Furthermore, the mission plans to monitor replacement
dates for nonexpendable property, including property outside the of the furniture and appliances
pool     such      as    computers,    through    the    integrated    logistics    management
system once it is fully updated by February 15, 2015. We acknowledge management’s decision.

Recommendation 3. USAID/South Sudan plans to document full explanations for items that
are marked for disposal in its new inventory management system by December 1, 2014. We
acknowledge management’s decision.

Recommendation 4. USAID/South Sudan plans to update its inventory in the new integrated
logistics management system; for each item, the mission will include the date received, the
useful life, in service date, condition, and the replacement date. The new system’s software will
allow the mission to run reports to show the expected disposal dates for its nonexpendable
property. The target date for completion is February 15, 2015. We acknowledge management’s
decision.

Recommendation 5. USAID/South Sudan plans to develop and implement standard operating
procedures governing the disposal of assets before its next auction. The procedures will include
timely reconciliation and validation of winning bids among those recording them (a minimum of
three people in addition to the auctioneer); the procedures also will address recording each item
for disposal with an associated sale price including items within a lot sale. The target date for
completion is December 15, 2014. We acknowledge management’s decision.

Recommendation 6. USAID/South Sudan will perform its annual inventory of all vehicles in
October 2014. Additionally, the mission plans to finalize a standardization policy by
November 30, 2014, that will identify which vehicles it has, the types of vehicles for which parts
are available in Juba, and types of vehicles that local mechanics know how to repair. The
mission plans to document vehicle requirements in accordance with fleet size and composition
standards outlined in ADS 536.3.4, along with recommendations from the Regional Security
Office and the Embassy’s Emergency Action Committee in Juba. The target date for completion
of these actions is December 15, 2014. We acknowledge management’s decision.

Recommendation 7. USAID/South Sudan is providing training to its motor pool supervisor on
the vehicle management information system. In addition to completing the online course for
overseas management of motor pool, the supervisor is working with the administrator of
USAID’s vehicle management information system in Washington, D.C., to organize the
mission’s vehicle records, including deleting duplicate records and updating incorrect
information in the system. Additionally, the mission is planning to include all vehicle records,
including those belonging to State Department, into the integrated logistics management system
by November 30, 2014. We acknowledge management’s decision.

Recommendation 8. USAID/South Sudan does not agree with the recommendation to make a
written determination of which officials were not complying with vehicle procurement regulations
and document remedial actions taken. In a subsequent discussion with mission officials, they
explained that the contracting officers involved in procurement decisions made 5 years ago
have since left, and currently there is no contracting officer stationed in Juba. The mission’s



                                                                                               11
procurement team includes local and third-country national staff, with remote support from a
contracting officer based in D.C.

Given its limited resources, the mission addressed the recommendation within its manageable
control. It plans to review the procurement process with its existing employees to make sure
they understand the circumstances surrounding the procurement, and how it did not comply with
regulations. Furthermore, the mission said its standardization policy in response to
Recommendation 6 would help future vehicle procurements. The target date for completion is
November 30, 2014. We acknowledge management’s decision.

Recommendation 9. USAID/South Sudan plans to implement procedures to identify and
document the brand and type of vehicles for procurement before asking for quotations. Before
procuring new vehicles, the mission will instruct the procurement team to conduct a survey of
vehicle maintenance in Juba to determine the most cost-effective makes and models of vehicles
for the mission to maintain. Additionally, the mission will review its vehicle inventory and
standardization policy (in response to Recommendation 6) before procuring any new vehicles. It
plans to finalize its standardization policy that will address these procedures by
November 30, 2014. We acknowledge management’s decision.

Recommendation 10. USAID/South Sudan has begun implementing a plan to comply with
vehicle maintenance requirements. The mission developed a preventative maintenance
schedule on August 26, 2014, that will rotate every 3 months to certify that mission vehicles
have been checked. Additionally, it developed a checklist for mechanics to complete and file in
each vehicle’s folder. Furthermore, the mission is updating its vehicle records, including fuel and
maintenance records, in the vehicle management information system and the integrated
logistics management system. The target date for completion is October 31, 2014. We
acknowledge management’s decision.




                                                                                                12
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Pretoria conducted this audit in accordance with generally accepted government auditing
standards. They require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with our
audit objective. We believe that the evidence obtained provides that reasonable basis.

The purpose of this audit was to determine whether USAID/South Sudan managed its
nonexpendable property in accordance with Agency guidance. Although USAID/South Sudan’s
records could not be verified, they showed that the mission was managing more than
7,600 items of nonexpendable property worth more than $5 million. In addition, the mission
reportedly managed 80 vehicles, and although the cost records are incomplete and inaccurate,
these vehicles cost more than $5 million.

The primary focus of the audit was the internal controls related to management of
nonexpendable property. To answer the audit objective, we reviewed controls over the
purchase, receipt, and recording of new nonexpendable property; the identification, disposal,
and recording of nonexpendable property after it is no longer useful; the identification and
recording of missing or lost nonexpendable property; and the purchase, receipt, maintenance,
and disposal of vehicles. In addition to answering the audit objective, we reviewed the mission’s
organizational structure, oversight conducted through the Management Control Review
Committee and the related FMFIA certifications, and the control environment.

As part of this audit, we reviewed the following documentation.

•   Beginning and ending inventory for FY 2013
•   Items received and sold during FY 2013
•   Items that were reported missing during FY 2013
•   Management Control Review Committee meeting minutes in FY 2013
•   Vehicle procurement for vehicles received in FY 2013
•   Vehicle management information system report prepared for FY 2013
•   Vehicle inventory records as of October 2013

We conducted audit fieldwork from December 4 to 11, 2013. During fieldwork, we met frequently
with mission officials to understand how they manage nonexpendable property. We conducted
the audit at USAID/South Sudan, including its off-site storage location and the residential
compound in Juba.

Methodology
To determine whether USAID/South Sudan managed its nonexpendable property in accordance
with Agency guidance, we planned to reconcile the beginning and ending inventories for
FY 2013 with the items received and sold or lost during that year. We would then select
statistical samples of the items received, sold, and lost, and ending inventory to verify that the
mission managed these processes in accordance with Agency guidance.




                                                                                               13
                                                                                      Appendix I


However, USAID/South Sudan could not provide reconcilable data. As a result, we could not
verify the completeness of the lists of items received, sold, and lost, and ending inventory. At
the end of fieldwork on December 11, 2013, we had reduced the difference between the
calculated ending inventory (beginning inventory plus items received, less items sold or lost)
and the reported ending inventory from more than 8,000 to less than 900 items. However, this
indicates that the mission could not account for 12 percent of its ending inventory in either the
beginning or the receiving report. Mission officials confirmed on December 12, 2013, that they
were working on completing this reconciliation, but on December 15, 2013, violence broke out in
Juba, and on December 17, 2013, USAID evacuated nonessential personnel.

In the absence of a complete inventory history for the year, the auditors reviewed procedures to
purchase, receive, dispose, and record nonexpendable property as missing. We also reviewed
the processes used to purchase, receive, store, maintain, and dispose of vehicles. We selected
statistical samples from the populations we received, although we did not project results
because of the problems reconciling discussed above. We physically verified all 54 vehicles the
mission originally reported to auditors as the complete inventory, but we later found out that
USAID managed 26 other vehicles that the mission did not originally report. We reviewed the
purchase orders for 115 out of the sample of 124 items received in FY 2013.




                                                                                              14
                                                                                       Appendix II



MANAGEMENT COMMENTS



MEMORANDUM

TO:            Rameeth K. Hundle
               Acting Regional Inspector General/Pretoria (RIG)

FROM:          Teresa McGhie /s/
               USAID/South Sudan Mission Director

SUBJECT:       Audit of USAID/South Sudan’s Management of Nonexpendable (NXP)
               Property (Report No. 4-668-14-XXX-P)

DATE:          September 5, 2014

This memorandum conveys USAID/South Sudan’s management response to the above
referenced audit report of Management of Nonexpendable (NXP) Property dated July 14,
2014. As the Mission notified your office ahead of its December 2013 visit, we were unable
to give the audit team our full attention due to a VIP visit and a heavy workload during the
scheduled week of the first audit visit. The Mission thanks the audit team, but regrets that due
to the outbreak of the ongoing civil war in South Sudan on December 15, 2013, they were not
able to return to the Mission in January 2014 to complete the audit as planned. The following
section provides important contextual information that the Mission had planned to discuss
more fully during the second visit or otherwise relates to the Ordered Departure (evacuation)
from Post from December 18, 2013 to June 11, 2014.

Background and Mission Context

USAID/South Sudan welcomed the RIG visit. USAID/South Sudan is a new mission and has
gone through tremendous change over the past eight years. There have been many challenges
to a strong NXP management system and the Mission looked to the resulting audit report to
provide a solid roadmap for addressing vulnerabilities.

During the set-up of the Mission, much of the NXP (including many vehicles and furniture)
had been donated to Mission by other USAID missions or operating units. As a result,
Mission had a mix of property and, although some may have been received fairly recently,
much of it had been in use for some years at other missions. Further, much of this property


                                                                                                   15
                                                                                        Appendix II


was never requested by Mission, but was just sent as excess from other missions assuming
that USAID/South Sudan needed it. In several cases, it was delivered with little notice and
with systems not in place to receive such large quantities of property. As the Mission grew,
procurement of property was necessary to maintain and standardize the operations, but the
formal policies justifying why this property was needed was not done ahead of time.

Like other USAID Critical Priority Countries (CPCs), lack of continuity in oversight by U.S.
and Third Country Nation (TCN) personnel has been a key factor in weak NXP management.
Frequent turnover of management due to one-year rotations by American employees and key
gaps in offshore oversight personnel also precluded the continuity needed to start and
complete some of these important administrative tasks. At most USAID missions throughout
the world, FSNs have provided the backbone of continuity. Local FSN staff overseeing NXP
management still have a limited base level of experience and skill to perform this function.
The lack of continuity in offshore staff overseeing NXP has also limited the on-the-job (OJT)
training provided to the local staff and training in best practices.

When the Ordered Departure was terminated on June 11, 2014, the Department of State
Undersecretary for Management, in consultation with the National Security Council,
authorized only a limited number of offshore positions to return to Post, including 20 USAID
positions out of 45. The Post is also currently limited by a strict temporary duty (TDY) policy
that allows only a small number of visitors to Embassy Juba until the security situation
significantly improves. Many of the remedies discussed below will depend upon bringing
NXP subject matter experts and trainers to Juba, but the security situation does not permit
such access. As South Sudan enters the dry season and fighting is expected to intensify, it is
difficult to estimate when assigned USAID staffing and regular TDY visits may return to
normal. For this reason and to be most realistic, several of the remedial deadlines are longer
than they would be for other USAID missions under normal conditions.

Another challenge was the adoption of a new, unfamiliar inventory management system. The
Mission was instructed in 2013 to change inventory management systems from Barscan to
Department of State Integrated Logistics Management System (ILMS). The relatively short
video teleconference (VTC) training provided on this new system was insufficient to ensure
full mission competency. During the December 2013 NXP audit, the Mission was at the
beginning of this complicated transition. The crisis and Ordered Departure that took place a
week after the audit then delayed this transition further. We are now in the process of
restarting this inventory transition, but it has been a slow process. We are teaching this new
system to ourselves and communicating remotely with helpdesks and more experienced
colleagues at other posts.

One last important note on NXP management in South Sudan is the importance of
standardization and harsh conditions that shorten the expected life span of many property
items. This is especially true of the armored vehicle fleet, which is literally shaken apart by
the non-existent or severely rutted roads in South Sudan, including throughout its capital city,
Juba. Following the crisis in July 2013 (after the dismissal of the South Sudanese Vice
President and the Cabinet), the Emergency Action Committee barred the use of soft-skin
vehicles and mandated the use of the armored vehicle fleet for all travel. As a result of the



                                                                                                   16
                                                                                       Appendix II


constant use and poor conditions, many of these vehicles will need to be disposed of before
their normal estimated life span or mileage.


Mission Response to OIG Recommendation

Recommendation 1. We recommend that USAID/South Sudan address the significant control
deficiency with mission’s personal property management and document actions taken.

USAID/South Sudan agrees with the recommendation. Mission warehouse staff began the
annual inventory September 2, 2014. Due to the civil unrest, no inventory was done in the
past year. The timeline to complete the inventory in the residences and offices will be 4
months. For NXP stored in containers at the Mission warehouse site we estimate
arrangement, counting, and inputting the NXP items in the system will take an additional
month, with a completion date of February 15, 2015. Due to a change of inventory
management systems, the inventory management team needs to start over and manually enter
most of our property. Management is additionally trying to get Department of State
Integrated Logistics Management System (ILMS) trainers to Juba in the next 6 months to
assist in training the warehouse team on better inventory management and proper use of the
ILMS asset management system. Due to a restricted travel policy to South Sudan, the timing
of this may change.


Recommendation 2. We recommend that USAID/South Sudan prepare a written list of the
minimum replacement standards for nonexpendable property managed by USAID/South
Sudan.

USAID/South Sudan agrees with the recommendation. Management has created a draft
Furniture and Appliance Pool (FAP) policy that includes average useful life expectancies for
furniture and appliances. Management is in the process of revising this and the timeline for
having the final version completed is January 30, 2015. This policy will provide a written
record of expected replacement standards that will be consulted prior to replacement of any
NXP. Additionally, once the NXP inventory is fully updated in ILMS, correct replacement
dates will be monitored using this system for all NXP, including other property not covered
by the FAP, such as computers. This will begin February 15, 2015.


Recommendation 3. We recommend that USAID/South Sudan implement procedures to
document the reason for disposing of property before the end of its useful life.

USAID/South Sudan agrees with the recommendation. There were procedures in place to
document the reason for disposing of property before the end of its useful life but the process
failed to provide full explanations. In the new inventory management system Mission will
provide better explanations for why items are marked for disposal. The timeline for
implementation will be December 1, 2014 and for items that we are arranging to dispose of




                                                                                                  17
                                                                                      Appendix II


before December 1, 2014, the Mission will ensure proper explanations are included prior to
disposal.


Recommendation 4. We recommend that USAID/South Sudan prepare a schedule of property
in its inventory organized by expected disposal date.

USAID/South Sudan agrees with the recommendation. Once our inventory is completely
updated in ILMS each item will have the following information so management can easily
track expected disposal dates: Date Received, Useful Life, In Service Date, Condition, and
Replacement Date. Using this inventory management software, Mission can easily run a
report to show expected disposal dates. The timeline for completion of this for all NXP is
February 15, 2015.


Recommendation 5. We recommend that USAID/South Sudan implement written procedures
governing the disposal of assets, including adequate records to determine which items were
sold, at what price, and to whom, and the timely reconciliation of any differences.

USAID/South Sudan agrees with the recommendation. Management is arranging to have
more record keepers at the Mission’s next auction. Management will have a minimum of
three people recording winning bids in additional to the auctioneer. The winning bids will
then be reconciled to ensure all agree. Additionally, when each item is recorded as disposed
by auction the inventory management team will split the lot sale price in a reasonable way to
assign a sale price to each individual item within the sale lot. The standard operating
procedures documenting this will be written prior to the next auction. The timeline for
completing this is December 15, 2014.


Recommendation 6. We recommend that USAID/South Sudan implement written procedures
to comply with State Department and USAID requirements to review the number and type of
vehicles required for operations in South Sudan.

USAID/South Sudan agrees with the recommendation. Mission will be doing a yearly
inventory of all vehicles in October 2014. We will document our yearly vehicle requirements
using fleet size and composition standards outlined in ADS 536.3.4 and the recommendations
by the Regional Security Office and the Emergency Action Committee in Juba. The timeline
for completion of this will be December 15, 2014. In addition, Management is working on a
standardization policy that will provide documentation showing which vehicles Mission
already has, which types of vehicles have parts available in the market in Juba, and which
vehicles local mechanics are experienced repairing. This will be completed by November 30,
2014.


Recommendation 7. We recommend that USAID/South Sudan provide and document training
to the motor pool supervisor on the vehicle management information system.



                                                                                                18
                                                                                     Appendix II



USAID/South Sudan agrees with the recommendation. The motor pool supervisor has been
working closely with USAID Vehicle Management Information System (VMIS) administrator
in Washington, DC to properly organize our vehicle management records. Some duplicate
records have already been deleted and much of the incorrect information has been updated.
Additionally, we are working to get all State Department vehicles correctly in ILMS so all
vehicles are properly recorded. The timeline for completion of this is November 30, 2014.
The motor pool supervisor has completed the online Motor Pool Management Overseas
course.

Recommendation 8. We recommend that USAID/South Sudan make a written determination
of which officials were not complying with regulations regarding the vehicle procurement and
document any appropriate remedial actions taken.

USAID/South Sudan disagrees with the recommendation. Management will review the
procurement process with any employee still part of Mission. This step will ensure we better
understand the circumstances of this procurement and the employee understands where this
procurement was not complying with regulations. This will be completed by November 30,
2014.

However, given the high turnover at the Mission, it would not be possible for USAID/South
Sudan to document and provide remedial actions for officers no longer at Post, particularly
Contracting Officers. This would require in-depth coordination with multiple Missions,
which under the current circumstances is untenable.

Juba is very limited in what is available both in the materials and labor which has shortened
the life expectancy of many NXP items. For a specific example, five Mercedes G-Wagons
were donated to the Mission in 2009. Once these vehicles were received, it was clear they
were going to be very difficult to maintain. Although these were very high quality vehicles,
the harsh road conditions in Juba are extremely damaging to this type of vehicle.
Replacement parts were not available and local mechanics were not skilled at working on
Mercedes G-Wagons. This resulted in the vehicles being unusable before what would be
considered a normal lifespan based on mileage. In general, armored Toyota Landcruisers are
more resilient in the South Sudan environment, built as armored vehicles from the frame up,
and have many sources in Juba for parts and repairs, making them the much preferred
standardized choice for replacement vehicles. This experience led management to get specific
in selection of the vehicle make and models they believed could best serve USAID/South
Sudan. Due to heavy workloads and high turnover, a formal standardization policy was never
documented for vehicles or other high value NXP. As noted above in Recommendation 6, the
Mission is producing a standardization policy to be completed by November 30, 2014.


Recommendation 9. We recommend that USAID/South Sudan implement procedures to
identify and document the brand and types of vehicles that need to be procured before asking
for quotations, including why these specific vehicles are required.




                                                                                                19
                                                                                      Appendix II


USAID/South Sudan agrees with the recommendation to better document reasons that specific
brands and models of vehicles should be procured. Prior to any new vehicle purchases,
procurement will be instructed to do a full survey of vehicle maintenance facilities in Juba to
determine what make and model of vehicles will be most cost effective for the Mission to
maintain. An additional review of current mission vehicles and standardization policy will be
done prior to any new vehicle purchases. As noted above in Recommendation 6, the Mission
is producing a standardization policy to be completed by November 30, 2014.

Recommendation 10. We recommend that USAID/South Sudan implement policies and
procedures to comply with maintenance requirements.

USAID/South Sudan agrees with the recommendation. Beginning August 26, 2014, there is a
documented preventive maintenance schedule that will be rotating every three months to
ensure that all mission vehicles have undergone preventive maintenance. In addition to the
schedule, Mission has developed a comprehensive preventive maintenance checklist which
the mechanics will complete for each vehicle and file in the vehicle folders. Mission is in the
process of getting all our vehicle records updated in VMIS and ILMS to ensure that both
maintenance and fuel records are up to date. Mission is scheduled to complete this by
October 31, 2014.

Cc:    (1) Supervisory Executive Officer, USAID/South Sudan
       (2) General Services Officer, USAID/South Sudan




                                                                                                  20
                                                                           Appendix III


                  USAID/South Sudan’s FY 2013 Vehicle Information System




* The highlighted rows indicate duplicate records for two vehicles.




                                                                                    21
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
